PETITION FOR A WRIT OF CERTIORARI
Appendix-A. After filing case within the lower court and being dealt unfairly.
I immediately filed with the Third district court of appeal. On January 16, 2020 I received the decision from
The 3-DCA, in which the ruling were followed by the lower court decision timely filed.
After sending all correspondence in my brief showing that the filing was within the statute of limitation.
The 3-DCA overlooked the recorded court documents. I then filed my case with the Supreme Court of
Florida seeking justice. On March 2, 2021. After re-submitting my brief, it was then excepted and logged
Into the filing court system.
On April 5, 2021.1 the Petitioner reached out to the clerk of court Miss Bernard, concerning the
Respondent not filing an answer brief. On that evening I checked the filing portal. The Supreme Court of
Florida had recorded Order- Brief None Filing Answer Brief. I waited patiently on the supreme court of
Florida ruling. On April 21,2021.1 received an email decline to except jurisdiction.
After filing and submitting supporting documents, on behalf of my case in which I have been, undergoing
since the day of the mediation. (April 7, 2017) And the day case were filed back in court April 1,2019.
And the respondent not filing an answer brief with the courts, and the court declined jurisdiction. I am
aware that they can decline jurisdiction. “But” after receiving supporting documents from the petitioner,
and nothing in writing from the Respondent is clearly unjustifiable. I am not an attorney, but I know right
from wrong, and this is clearly wrong doing to anyone. I am like a parent that child has been injured. And I
can’t stop until he or she is better. I am now to the mercy of the supreme court of the United States. In
God we will trust. I’m at your mercy now. I ask that you review the timeline on timely filing and all court
documents.

Sincerely:
Falisha Bell

RECEIVED
AUG 3 1 2021
§^cfgr%lgfS!<

Supreme Court of Jflort&a
WEDNESDAY, APRIL 21, 2021
CASE NO.: SC21-107
Lower Tribunal No(s).:
3D20-885;
132019CA012043000001
FALISHA BELL

vs.

Petitioner(s)

SCOTT WAGNER &
ASSOCIATES
Respondent (s)

This. cause having heretofore been submitted to the Court
.
on
jurisdictional briefs and portions of the record deemed necessaiy to
reflect jurisdiction under Article V, Section 3(b), Florida
Constitution, and the Court having determined that it should
decline to accept jurisdiction, it is ordered that the petition for
review is denied.
No motion for rehearing will be entertained by the Court See
Fla. R. App. P. 9.330(d)(2).
POLSTON, LABARGA, LAWSON, COURIEL, and GROSSHANS
, JJ.,
concur.
A True Copy
Test:

^22.
JoMA. ToniasliiQ

Cferfe Supfe&eCoiaf
db
Served:
BRIAN L. HARVELL
FALISHA BELL
HON. HARVEY RUVIN, CLERK
HON. MERCEDES M. PRIETO, CLERK
HON. PEDRO P. ECHARTE JR., JUDGE

m

‘<§3S&

Gtfnrh district Court of Appeal
State of Florida
Opinion filed December 16, 2020.
Not final until disposition of timely filed motion for rehearing.

No. 3D20-0885
Lower Tribunal No. 19-12043

Falisha Bell,
Appellant,
vs.

Scott Wagner & Associates,
Appellee.

An appeal from the Circuit Court for Miami-Dade County, Pedro P. Echarte,
Jr., Judge.
Falisha Bell, in proper person.
Resnick & Louis, P.C., and Brian L. Harvell, and Robert J. Squire, for
appellee.

Before SCALES, MILLER, and BOKOR, JJ.
PER CURIAM.

Affirmed.

See § 95.11(4)(a), Fla. Stat. (“An action for professional

malpractice, other than medical malpractice, whether founded on contract or tort;
provided that the period of limitations shall run from the time the cause of action is
discovered or should have been discovered with the exercise of due diligence” must
be brought “[w]ithin two years.”).

2

IN THE DISTRICT COURT OF APPEAL
OF FLORIDA
THIRD DISTRICT
JANUARY 22, 2021

FALISHA BELL,
Appellant(s)/Petitioner(s),
vs.
SCOTT WAGNER & ASSOCIATES,
Appellee(s)/Respondent(s),

CASE NO.: 3D20-0885
L.T. NO.:

19-12043

Upon consideration, the appellant's pro se Motion of
Reconsideration is hereby denied.
SCALES, MILLER and BOKOR, JJ., concur.
ATruetuupj** 1 ' •>/'

A r ft. ST ~
%*
\ •

■

CfrEkK.

■ti:

'

uisiwT rot:irrTjft

cc:
la

Brian L. Harvell

Robert J. Squire

Falisha Bell

Tiling # 108193762 E-Filed 06/01/2020 12:56:47 PM

IN THE CIRCUIT COURT OF THE ELEVENTH JUDICIAL
CIRCUIT IN AND FOR MIAMI-DADE COUNTY, FLORIDA
CASE NO: 2019-012043-CA-01
SECTION: CA09
JUDGE: Pedro P F-charte Jr
FALISHA BELL
Plaintifffs)
vs.
Scott Wagner and Associates et al
Defendants)

FINAL JUDGMENT OF DISMISSAL WITH PREJUDICE
This matter came before the court on June 1, 2020, on Defendant’s Motion for Final Judgment
Of Dismissal. The parties appeared by Zoom.

On February 4, 2020 Plaintiff was granted leave to file an amended complaint within ten (10)
days of that date. Rather than filing an amended complaint, on February 6, 2020, Plaintiff filed
an incomprehensible motion seeking leave to file an amended complaint Because Plaintiff did
not file any amended complaint, Defendant filed a motion for final order of dismissal on
February 26, 2020. In response to the motion, and instead of filing an amended complaint,
Plaintiff filed the same-incomprehensible motion but captioned it "Amendment of Initial
Complaint". Plaintiffs motions to amend the complaint were legally insufficient as no proposed
complaint was ever attached or filed.

At hearings on both May 27, 2020 and May 28, 2020, Plaintiff was advised by the court that her
filings did not constitute a complaint and, as such, Plaintiff was granted additional time to file an
amended complaint

Case No: 2019-012043-CA-01

Page 1 of3

i'7

Supreme Court of Jflortba
MONDAY, APRIL 5, 2021
CASE NO.: SC21-107
Lower Tribunal No(s).:
3D20-885;
132019CA012043000001
FALISHA BELL

vs.

Petitioner(s)

SCOTT WAGNER &
ASSOCIATES
Respondent(s)

Counsel for respondent having not filed an answer brief, the
above case has been submitted to the Court for consideration.
A copy of petitioner’s brief may be found on this Court’s
website (http: / /www.floridasupremecourt.orgl via the Docket
Search page.
A True Copy
Test:

<22
John A. Tomasino
Clerk. Supreme Court
db
Served:
BRIAN L. HARVELL
FALISHA BELL

4

Supreme Court of Jflortba
Office of the Clerk
500 South Duval Street
Tallahassee, Florida 32399-1927
Phone Number: (850) 488-0125

John A. Tomasino
Clerk
Mark Clayton
Chief Deputy Clerk

www.floridasupremecourt.org

JULIA BREEDING
Staff Attorney

RE: FALISHA BELL

May 19, 2021
vs. SCOTT WAGNER & ASSOCIATES

CASE NUMBER: SC21-107
Lower Tribunal Case Number(s): 3D20-885;
132019CA012043000001
The Florida Supreme Court has received the following document
reflecting a filing date of 5/18/2021.
Letter
In response to the above letter please be advised that the United
States Supreme Court is the appropriate Court to review a decision
of this Court. Enclosed is a sample packet to assist you in filing
your petition.
The Florida Supreme Court's case number must be utilized on all
pleadings and correspondence filed in this cause.
lc
cc:

BRIAN L. HARVELL
FALISHA BELL
&

Additional material
from this filing is
available in the
Clerk's Office.

